f=»
I

C@OCKLE

4 E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-7304
ROBERT PHILLIP IVERS,
Petitioner,
v.
UNITED STATES,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE LAW PROFESSORS IN SUPPORT OF PETITIONER ROBERT PHILLIP IVERS in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 4105 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this Ist day of April, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

    

 

GENERAL WOTARY-State of Nabraska &v Chk
i RENEE J. GOSS 9 °
My Comm. Exp. September §, 2023 <

Affiant 40863

   

Notary Public
